                                                   ~     SECu
                                                  C;        ~                       ICN    31170-23-168
                                                 ~
                                                 ~      1II1II1~~
                                                     .~i'VIsTV

                                     SOCIAL            SECURITY
                                      Office of the Inspector General
MEMORANDUM

Date:   June 18,2001                                                               Refer To:
        Larry G. Massanari
        Acting Commissioner
         of Social Security


From:   I nspector   General




Subject:
      Audit of the Social Security Administration's       Fiscal Year 2001 Annual Performance Plan
        (A-02-00-10038)


        The attached final report presents the results of our audit. Our objective, in response to
        a request from the Chairman of the Senate Committee on Governmental Affairs, was to
        determine what improvements the Social Security Administration made to its
        Fiscal Year 2001 Annual Performance Plan to make it a document that measures
        performance in a meaningful way.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the draft report
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                                    James G. Huse, Jr.

        Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


            REVIEW OF THE

  SOCIAL SECURITY ADMINISTRATION’S

           FISCAL YEAR 2001

     ANNUAL PERFORMANCE PLAN


     June 2001    A-02-00-10038




 AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        Executive Summary
OBJECTIVE

We initiated this audit in response to an April 18, 2000 request from the Chairman of the
Senate Committee on Governmental Affairs to identify improvements in the Fiscal Year
(FY) 2001 Annual Performance Plan (APP), and to an earlier request of Congressmen
Sessions, Horn, Burton, and Armey to review continuing implementation of the
Government Performance and Results Act (GPRA) of 1993. Our objective was to
determine the improvements the Social Security Administration (SSA) made to its
FY 2001 APP, and assess the extent to which it provides indicators to measure
performance in a meaningful way.

BACKGROUND

GPRA established a framework through which Federal agencies are required to set
goals, measure performance, and report on the extent to which the goals were met. To
accomplish this, agencies are required to prepare 5-year strategic plans, APPs, and
annual performance reports.

The strategic plan, which should include a comprehensive mission statement, identifies
general goals and objectives, describes how the agency intends to achieve those goals
and objectives, and identifies critical external factors that could affect achievement of
strategic goals and objectives. The strategic plan is the starting point for setting annual
goals. The APP provides the direct link between strategic goals and agency
performance. The APP identifies: (1) the annual performance goals the agency will use
to gauge progress toward accomplishing its strategic goals and (2) performance
measures to be used to assess annual progress.

SSA was a pilot Agency that developed plans and reports prior to full implementation of
GPRA in March 2000. SSA submitted its first strategic plan under GPRA, “Keeping the
Promise,” in September 1997. SSA completed its first APP, which defined performance
indicators and goals for FY 1999, in February 1998. SSA released the FY 2000 and
2001 plans in February 1999 and February 2000, respectively. SSA began reporting its
accomplishments as part of its annual Accountability Report in FY 1995.




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)              i
RESULTS OF REVIEW

SSA’s FY 2001 APP represents SSA’s strong commitment and evolving progress to
meet the objectives of GPRA. The APP responds to many of the criticisms about
previous plans. Acknowledging the evolving nature of GPRA reporting, we believe that
SSA can take additional action to make future performance plans more useful to
decisionmakers and allow a better assessment of progress toward world class service.
The APP would be more useful if it contained: (1) goals for those management
challenges for which measurable corrective action is possible; (2) more outcome-based
and service-related measures; (3) a basis upon which to compare goals and
subsequent performance with customer expectations; and (4) more specific
identification of resources needed to accomplish planned performance. Additionally,
SSA, notes in the APP section on crosscutting areas with other agencies that it
performs work related to Medicare enrollment and premium billing and adjustments
however, no related performance goals are established.

CONCLUSION AND RECOMMENDATIONS
GPRA is intended to increase agency accountability through a program of strategic
planning, establishment of annual goals, and reporting of annual performance against
goals. SSA has continued to make progress in establishing goals in the APPs to
measure its performance. The FY 2001 APP addressed concerns expressed by the
Office of the Inspector General (OIG) and the U.S. General Accounting Office about
SSA’s FY 1999 and 2000 APPs.

We believe that opportunities remain to further address management challenges, refine
selected measurements to better reflect performance, provide perspective on the extent
to which goals established will further “world class service,” and link resources to
planned performance. Consequently, we recommend that SSA implement the following
to enhance the usefulness of future APPs:

•	 Set goals for those management challenges for which measurable corrective action
   is possible;

•   Establish more outcome-based and service-related measures;

•	 Provide a basis upon which to compare goals and subsequent performance with
   customer expectations;

•   Specifically identify resources needed to accomplish planned performance; and

•	 Coordinate with the Health Care Financing Administration to determine which
   agency should establish performance goals for service to Medicare recipients.




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)            ii
AGENCY COMMENTS
SSA agreed with four of our recommendations and disagreed with one. The full text of
SSA’s comments is included in Appendix B.

In agreeing with recommendation 2 “establish more outcome-based and service-related
measures”, SSA correctly noted that establishing outcome-based and service-related
measures is an evolving process. Accordingly, SSA further noted that the FY 2002 APP
indicates that efficiency indicators will be developed for initial claims and post-
entitlement workloads, and that the feasibility of establishing measures for additional
workloads will be evaluated.

Concerning recommendation 3 “provide a basis upon which to compare goals and
subsequent performance with customer expectations”, SSA responded that there may
be value in such comparisons as they affect specific measures, and notes that goals are
set based upon customer interests in combination with historical experiences,
benchmarks, and investments.

SSA did not agree with recommendation 4 “specifically identify resources needed to
accomplish planned performance”. While recognizing the desirability of a strong link
between budget and planned performance, SSA believes that the intent of GPRA is met
through SSA’s budget justifications and performance plans.

In its response, SSA provided technical comments that were incorporated in this final
report, as appropriate.

OIG RESPONSE
We are pleased that SSA agreed with four of our five recommendations, and we believe
that SSA’s planned actions should contribute toward a more informative APP. The
ultimate objective of GPRA is to measure agencies’ performance against relevant goals
to allow an assessment of meaningful accomplishments, and we encourage SSA’s
planned efforts.

We believe that agencies must establish meaningful goals that strive to meet
customers’ expectations within the constraints of budgetary resources. Therefore, we
encourage SSA to make comparisons between goals and subsequent performance with
customer expectations to ensure that goals and performance are responsive to
customer expectations.

Concerning establishing a link between resources and performance, we acknowledge
the value of the information that SSA has provided. Nevertheless, we believe that, to
the extent possible, planned costs to achieve specific measures should be disclosed in
order to establish greater accountability and to begin moving toward compliance with
federal cost accounting concepts.


Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)             iii
                                                          Table of Contents

                                                                                                              Page

INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW......................................................................................... 4


APP Demonstrates Improvement and Commitment to GPRA … ........................... 4


Goals Needed for Management Challenges………………………………………….. 4


More Outcome and Service-Related Measures

Possible…………………………………………………………………………………… 5


Discussion of Goals and Customer Expectations Would Be

Helpful…………………………………………………………………………………….. 7


Plan Could Better Reflect Cost………………………………………………………… 8


Responsibility for Medicare Services Needs to Be Established……………………. 8


CONCLUSIONS AND RECOMMENDATIONS .................................................... 10


APPENDICES

Appendix A - Fiscal Year 2001 Performance Indicators and Goals

Appendix B - Agency Comments

Appendix C - OIG Contacts and Acknowledgments





Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)
                                                                     Acronyms

 APP
               Annual Performance Plan

 DI
                Disability Insurance

 FY
                Fiscal Year

 GAO
               General Accounting Office

 GPRA
              Government Performance and Results Act

 HCFA
              Health Care Finance Administration

 OASDI
             Old-Age, Survivors, and Disability Insurance

 OIG
               Office of the Inspector General

 OMB
               Office of Management and Budget

 OQA
               Office of Quality Assurance and Performance Assessment

 OSM
               Office of Strategic Management

 Rep Payee
         Representative Payee

 RSI
               Retirement and Survivors Insurance

 SSA
               Social Security Administration

 SSI
               Supplemental Security Income





Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)
                                                                 Introduction

OBJECTIVE
We initiated this audit in response to an April 18, 2000 request from the Chairman of the
Senate Committee on Governmental Affairs to identify improvements in the Fiscal Year
(FY) 2001 Annual Performance Plan (APP), and to an earlier request of Congressmen
Sessions, Horn, Burton, and Armey to review continuing implementation of the
Government Performance Results Act (GPRA) of 19931. Our objective was to
determine the improvements the Social Security Administration (SSA) made to its
FY 2001 APP, and assess the extent to which it provides indicators to measure
performance in a meaningful way.

BACKGROUND
The intent of GPRA is to improve the performance of Government programs by having
agencies clarify their missions, establish goals and strategies for attaining them,
measure performance, and report progress in achieving established goals. The APP
establishes the connection between long-term strategic goals outlined in the strategic
plan and SSA’s day-to-day activities.

GPRA specifies the general content of the APP, and the Office of Management and
Budget (OMB)2 has issued general guidance and principles to assist agencies in
developing APPs. Generally, the APP should:

�   detail the performance goals and indicators for the FY;

�	 describe the operational processes, skills, technology, and the resources needed to
   meet the goals;

�   align budget resources with performance goals;

�   contain performance information for several FYs;

�   describe how the performance will be verified and validated; and

�   discuss performance-related studies and analyses.




1
 Public Law No. 103-62

2
 OMB Circular A-11 Part 2, “Preparation and Submission of Strategic Plans, Annual Performance Plans,

and Annual Program Performance Reports”, July 1999.


Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)                 1
In September 1997, SSA released its first strategic plan, “Keeping the Promise,” since
becoming an independent Agency in 1995. SSA has established five broad strategic
goals in support of its mission, each of which has supporting strategic objectives. The
five strategic goals are to:

�	 Promote valued, strong and responsive Social Security programs and conduct
   effective policy development, research and program evaluation;

�   Deliver customer-responsive, world-class service;

�	 Make SSA program management the best in business, with zero tolerance for fraud
   and abuse;

�   Be an employer that values and invests in each employee; and

�   Strengthen public understanding of the Social Security programs.

SSA’s FY 2001 APP is organized by the five strategic goals, for which SSA describes
the activities performed in support of each goal. There are 17 strategic objectives and
2 categories of output measures for major budgeted workloads supporting the
5 strategic goals. Under the objectives and categories, there are 71 specific
performance indicators (refer to Appendix A). A general rationale, as well as baseline
performance information, data sources and background information, is provided for
each of the indicators.

SCOPE AND METHODOLOGY

To meet our objectives, we reviewed SSA’s FY 2001 APP and revised FY 2001 APP to
determine adherence to GPRA and OMB requirements, as well as to APP guidance
issued by the U.S. General Accounting Office (GAO). We analyzed the FY 2001 APP to
determine whether SSA addressed the weaknesses noted in the May 11, 1999 report
by the Committee on Ways and Means, Subcommittee on Social Security, which
evaluated SSA’s FY 2000 APP. We compared the FYs 1999, 2000, and 2001 APPs to
determine the extent to which the FY 2001 APP addressed concerns noted by GAO3
with SSA’s FY 1999 APP and by the Office of the Inspector General (OIG) with the
FY 19994 and 2000 APPs5.

We also analyzed the FY 2000 APP to assess the extent to which the performance
measures established were comprehensive and appropriate for what they purported to
measure, and the extent to which the measures addressed major initiatives and

3
  “The Results Act: Observations on SSA’s FY 1999 Performance Plan” (GAO/HEHS-98-178R),

June 1998 and “Observations on the Social Security Administration’s Fiscal Year 1999 Performance

Report and FY 2001 Performance Plan” (GAO/HEHS-00126R), June 2000.

4
  OIG observations were documented in a letter to SSA, which did not become a public report.

5
  “Review of the Social Security Administration’s Fiscal Year 2000 Annual Performance Plan”

(A-02-99-03007), November 1999.



Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)               2
management challenges identified by our on-going work. We discussed our preliminary
observations with Office of Strategic Management (OSM) staff to determine if our
concerns with the FY 2001 APP would be addressed in the revised FY 2001 APP and
draft FY 2002 APP.

Our field work was conducted at OIG’s New York Field Office and SSA Headquarters in
Baltimore, Maryland during August and September 2000. The entity audited was the
OSM within the Office of the Commissioner. Our audit was performed in accordance
with generally accepted government auditing standards, as applicable to a performance
audit.




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)   3
                                             Results of Review

SSA’s FY 2001 APP demonstrates a strong commitment to GPRA objectives. The APP
describes planned performance in a meaningful way, and generally complies with
GPRA reporting requirements. Although the FY 2001 APP represents an improvement
over the FY 2000 APP, we believe that there are opportunities to make future APPs
even more useful to decisonmakers. These opportunities include having: (1) goals for
those management challenges for which measurable corrective action is possible;
(2) more outcome-based and service-related measures; (3) a basis upon which to
compare goals and subsequent performance with customer expectations; and
(4) the resources needed to accomplish planned performance goals be better identified.

APP DEMONSTRATES IMPROVEMENT AND COMMITMENT TO GPRA

In response to congressional and GAO criticism of past plans, SSA made numerous
improvements to the FY 2001 APP. These changes will allow SSA and decisionmakers
to better measure and assess performance in important areas such as appeals
accuracy, return-to-work initiatives, and the quality and timeliness of research efforts.
The plan also includes significantly more data on information technology and capital
investment, an expanded discussion of significant external factors that could affect the
accomplishment of goals, a new section on major management challenges, and a
schedule of evaluations to be completed during FY 2001.

GOALS NEEDED FOR MANAGEMENT CHALLENGES

In response to the recommendation in the OIG report on SSA’s FY 2000 APP that SSA
establish performance measures for all major initiatives and management challenges,
SSA agreed that measurable indicators are useful to track major management
challenges. However, SSA believed that numeric outcome or output goals as
envisioned by GPRA are not always appropriate, and internal measurable milestones
would be sufficient.

SSA included the major management challenges identified by GAO and OIG as an
Appendix in its FY 2001 APP, along with an approach and commitment for addressing
them. OMB guidance recommends that performance goals be established for
management problems, particularly for problems whose resolution is mission-critical, or
which could impede achievement of program goals. While we agree in principle with
SSA that not all management challenges may be measurable annually, we believe that
some goals should be established to measure interim progress, such as reducing the
earnings suspense file. While this area has been problematic for SSA for some time, no
direct indicators are established. In fact, a related indicator – accuracy of earnings
postings – masks this issue by considering an appropriate posting to the suspense file
as accurate.




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)    4
The issue of representative payees (Rep Payee), which has been the subject of
congressional interest and recent negative publicity, is neither listed as a major
management challenge nor tracked with a performance measure in the FY 2001 APP.
The APP merely has an output measure of Rep Payee actions. OIG had previously
criticized this measure6 and recommended that, at a minimum, Rep Payee changes and
Rep Payee accounting be separately tracked. We further believe that a measure
should be developed that better reflects SSA performance to ensure timely and
accurate Rep Payee accounting.

The September 1999 Social Security Advisory Board report7 concluded that SSA faces
a major challenge in structuring its workforce of the future. This challenge related to
hiring the right number of staff with the needed skills. SSA has stated that it will need to
undertake aggressive human resource planning and leading-edge personnel practices,
and provide state-of-the-art technology for employees. While SSA has recently
published its 2010 Vision Report, which provides a plan for structuring the Agency for
service delivery in 2010, we believe that progress toward meeting this significant
challenge needs to be better tracked through performance indicators. Under the
objective to provide the necessary tools and training to achieve a highly skilled and
high-performing workforce, the FY 2001 APP has an indicator for the percent of offices
with access to interactive video training and two goals related to management
development plans and training. However, there are no indicators or goals relating to
training needs and delivery for nonmanagement employees. Further, while there is an
indicator to complete an Agency plan for transitioning to the workforce of the future,
there are little specifics provided upon which to gauge interim progress.

MORE OUTCOME AND SERVICE-RELATED MEASURES POSSIBLE

While SSA has continued to improve its APP evolving into more outcome-based
measures, additional opportunities exist to create indicators that more directly address
service and measure interim success toward SSA’s strategic goal to deliver world-class
service. Rather than goals that solely measure direct processing of claims, calls, and
other activities as an output, indicators could address the efficiency of these activities.

Some of the current output measures are dependent upon customer activity, and can
result in SSA not meeting goals through no fault of its own. For instance, in FY 1999,
SSA failed to meet several goals because the projected workload failed to materialize.
Failure to meet these types of goals is not truly reflective of SSA’s service. Others,
such as the number of Rep Payee actions discussed previously, merely count the
number of items processed.




6
  “Performance Measure Review: Review of Representative Payee Actions” (A-02-99-01010),

March 2000.

7
  “How the Social Security Administration Can Improve Its Service to the Public,” September 1999.



Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)                  5
Indicators that directly measure outcome would be more reflective of SSA’s
performance. For instance, both GAO and OIG have recommended in the past that
SSA develop measures for 800-number performance that would provide more
meaningful information concerning customer waiting time, once connected. Currently,
SSA does not have goals for customer waiting time, although its recent customer
service standards survey8 disclosed that a significant majority of respondents consider
service good when they are on hold no longer than 2.2 minutes. Similarly, while SSA
has goals relating to the increase in debt collected and the amount of overpayments
collected, additional indicators that reflect SSA’s commitment to debt management
could be established. For instance, the timeliness of collection and the percent of debt
written off could be meaningful. GAO made a similar observation in a recent report in
which it noted that the overpayment collection indicators combine old and new debt, and
as such, may mask SSA’s attempt to recover old debt.

Under the strategic objective to increase the range of program and information services
available to customers over the phone and electronically by FY 2002, SSA had
four indicators. However, two did not directly support accomplishment of the goal, but
merely measured output activity, rather than an increase in service. For instance,
one indicator was the number of customers accessing Social Security Online, while
another was the number of Social Security Statement requests online, which is a
service already available. In its revised FY 2001 APP, SSA reworked the FY 2001
goals under this strategic goal. Now the goals include the percent of customer-initiated
services available via the Internet or automated telephone service, and the percent of
States with which SSA has electronic access to various information. Additionally,
increasing the range of services electronically is dependent upon resolution of client
authentication issues, which has hampered SSA’s ability to expand electronic services.
Establishing an interim goal related to resolution of these issues would allow SSA to
monitor its progress.

As reported in the past, we believe separate measures for the Supplemental Security
Income (SSI) and Disability Insurance (DI) initial disability claims processing would
create greater accountability. Measurement of initial disability claims average
processing time represents a combined measure of both DI and SSI claims processing.
Historically, there have been differences in the amount of time it takes to process cases
in the different programs, and Federal regulations9 establish different threshold levels
for DI and SSI disability claims processing times. Similarly, while SSA has a goal of a
99.8 percent payment accuracy rate, this is based upon the benefit amount, and does
not measure the percent of cases that may be inaccurate. This latter measure would
more directly measure the effect upon the customer.




8
  Office of Quality Assurance and Performance Assessment’s (OQA) “Customer Service Standards

Survey” report, June 21, 2000.

9
  20 CFR §§ 404.1642 and 416.1042, which established processing time standards for State Disability

Determination Services.



Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)                6
The FY 2000 APP had a goal to award a contract to design a methodology to validate a
single medical listing. OIG reported, and SSA agreed, that this indicator did not provide
perspective on the scope of the effort, and that it would have been more valuable if
there had been an indication and basis on which listings would be validated first, such
as the most commonly approved medical listing. The FY 2001 APP has a goal to
prepare a preliminary report on the development of a validation methodology for
medical listings. We continue to believe that this is vague, and does not clearly identify
how accomplishments in FY 2000 relate to the goal for FY 2001. Additionally, as we
recently recommended10, we believe SSA should develop and report on a measure to
assess the service level and outcomes of the medical listings update activities.

DISCUSSION OF GOALS AND CUSTOMER EXPECTATIONS WOULD BE HELPFUL

The intent of GPRA is to improve accountability for Federal agencies by setting goals
that are reported in the APP, and through reporting in the APR, the progress in
achieving the goals. Ultimately, Congress would be able to review these documents in
conjunction with agencies’ budget requests, and theoretically performance could impact
future budgets. The effectiveness of this process depends upon realistic, yet
challenging, goals. As indicated previously, we believe that SSA could develop more
outcome-based service indicators. Additionally, SSA needs to ensure that its goals are
realistic in terms of the expectations of its customers, and if not, the reasons for such
should be disclosed. The intent of GPRA is not achieved, and congressional
decisionmakers are not provided complete information, if disclosure is not made of the
adequacy of the goals.

SSA has a goal in FY 2001 to have 92 percent of callers access the 800-number within
5 minutes of the first attempt. This was the goal in FY 2000, and SSA actually achieved
95.8 percent in FY 1999. However, the results of the Office of Quality Assurance and
Performance Assessment’s (OQA) June 2000 customer service standards survey
disclosed that a significant majority of respondents would consider accessing the 800-
number within 2 minutes as good service, and that only 46 percent would consider the
FY 2001 goal as good service.

Similarly, while SSA established a FY 2001 goal to release hearings decisions within
120 days of the request for 30 percent of the cases, the OQA survey reported that only
13 percent of the respondents rated this as good service. In the revised FY 2001 APP,
SSA changed this goal to 35 percent within 180 days. Further, GAO recently reported
that SSA has not established a goal for measuring the success of its efforts to achieve
more consistent decisions between the initial and hearings levels of the appeal process,
nor is timeliness to reach a final decision from the claimant’s perspective measured.




10
  “Status of the Social Security Administration’s Updates to the Medical Listings” (A-01-99-21009),
August 2000.


Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)                   7
Establishing and achieving goals that are not meeting customers’ expectations can
convey an unrealistic view of performance. Agencies need to ensure that their goals
are consistent with customer expectations. However, resources and other constraints
may not permit achieving customer expectations. When this is the case, the barriers to
meeting such goals should be disclosed. In the Message from the Commissioner in the
FY 2001 APP, he notes that meeting all performance expectations will be heavily
dependent on receiving adequate resources and continuing success in automation
efforts. This information is important for budget decisionmakers. Additionally the
Agency should disclose if the goals achieve customer expectations to ensure customer
satisfaction.

PLAN COULD BETTER REFLECT COST

GPRA allows flexibility to aggregate, disaggregate, or consolidate an Agency’s program
activities so that they align with performance goals. SSA’s FY 2000 APP aligns
performance goals by major functional responsibility rather than by budget account.
However, the resources, human capital, and technology necessary to achieve most
performance goals are not adequately described. This is particularly important given
congressional concern that the recent multi-billion dollar investment for the
reengineering of SSA processes had not been adequately linked to direct improvements
in service, productivity, and efficiency, and had not resulted in attainment of
performance goals.

While SSA acknowledges, and we recognize that SSA’s business processes support
multiple programs and strategic objectives, we believe specific costs could be identified
with many specific performance measures. For instance, under the strategic objective
to promote policy changes that relate to the disability program, the goals for three of the
five measures involve contracted services. Additionally, staff years associated with
many planned output goals could be disclosed. The Statement of Federal Financial
Accounting Standards, Number 4, “Managerial Cost Accounting Concepts and
Standards for the Federal Government,” requires that agencies determine the full cost
of each program activity. Specifying the planned cost and resources of these activities
would provide a better link between performance and resources.

RESPONSIBILITY FOR MEDICARE SERVICES NEEDS TO BE ESTABLISHED

SSA provides support to deliver programs for other agencies, such as Medicare and
Medicaid, and Food Stamps. This support involves primarily providing information to
and/or accepting applications from potential beneficiaries. However, SSA is the primary
contact point and provides key services for the Medicare program, such as determining
eligibility for Medicare, processing applications, maintaining eligibility records, and
calculating and collecting premiums.




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)      8
The Health Care Financing Administration (HCFA), which is responsible for Medicare
does not have performance measures in its FY 2001 APP for those aspects of the
Medicare program under SSA’s responsibility. Although SSA notes that it performs
work related to Medicare enrollment, and premium billing and adjustments in the APP
section on crosscutting areas with other agencies, little information is given on the
nature of this work.




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)   9
                                             Conclusions and
                                            Recommendations
GPRA is intended to increase agency accountability through a program of strategic
planning, establishment of annual goals, and reporting of annual performance against
goals. GPRA implementation will continue to be an evolutionary process as agencies
continue developing outcome-based measures, and enhance the systems and
processes that produce credible performance data. SSA’s FY 2001 APP represents
SSA’s strong commitment and progress to meet the objectives of GPRA. The APP
responds to many of the criticisms about previous plans. Acknowledging the evolving
nature of GPRA reporting, we believe that additional action can be taken to make future
performance plans more useful to decisionmakers and allow better assessment of
progress toward world class service. Specifically, SSA should:

1. 	 Set goals for those management challenges for which measurable corrective action
     is possible;

2. Establish more outcome-based and service-related measures;

3. 	 Provide a basis upon which to compare goals and subsequent performance with
     customer expectations;

4. Specifically identify resources needed to accomplish planned performance; and

5. 	 Coordinate with HCFA to determine which agency should establish performance
     goals for service to Medicare recipients.

AGENCY COMMENTS
SSA agreed with four of our recommendations and disagreed with one. The full text of
SSA’s comments is included in Appendix B.

In agreeing with recommendation 2 “establish more outcome-based and service-related
measures”, SSA correctly noted that establishing outcome-based and service-related
measures is an evolving process. Accordingly, SSA further noted that the FY 2002 APP
indicates that efficiency indicators will be developed for initial claims and post-
entitlement workloads, and that the feasibility of establishing measures for additional
workloads will be evaluated.

Concerning recommendation 3 “provide a basis upon which to compare goals and
subsequent performance with customer expectations”, SSA responded that there may
be value in such comparisons as they affect specific measures, and notes that goals are
set based upon customer interests in combination with historical experiences,
benchmarks, and investments.


Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)   10
SSA did not agree with recommendation 4 “specifically identify resources needed to
accomplish planned performance”. While recognizing the desirability of a strong link
between budget and planned performance, SSA believes that the intent of GPRA is met
through SSA’s budget justifications and performance plans.

In its response, SSA provided technical comments that were incorporated in this final
report, as appropriate.

OIG RESPONSE
We are pleased that SSA agreed with four of our five recommendations, and we believe
that SSA’s planned actions should contribute toward a more informative APP. The
ultimate objective of GPRA is to measure agencies’ performance against relevant goals
to allow an assessment of meaningful accomplishments, and we encourage SSA’s
planned efforts.

We believe that agencies must establish meaningful goals that strive to meet
customers’ expectations within the constraints of budgetary resources. Therefore, we
encourage SSA to make comparisons between goals and subsequent performance with
customer expectations to ensure that goals and performance are responsive to
customer expectations.

Concerning establishing a link between resources and performance, we acknowledge
the value of the information that SSA has provided. Nevertheless, we believe that, to
the extent possible, planned costs to achieve specific measures should be disclosed in
order to establish greater accountability and to begin moving toward compliance with
federal cost accounting concepts.




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)   11
                                        Appendices





Review of the SSA’s Fiscal Year Annual Performance Plan (A-02-00-10038)
                                                                                Appendix A
               FISCAL YEAR 2001 INDICATORS AND GOALS

Strategic Goal I: To promote valued, strong, and responsive social security
programs and conduct effective policy development, research, and program
evaluation.
Objectives: To promote policy changes, based on research and evaluation
analysis, that shape the old-Age, survivors, and disability insurance (OASDI)
and disability insurance (DI) programs in a manner that takes account of
future demographic and economic challenges, provides an adequate base of
economic security for workers and their dependents, and protects vulnerable
populations.

         Performance Indicator                                Fiscal Year (FY) 2001 Goal
I.1 Identification, development, and            I.1 Prepare summary and analysis on the barometer
    utilization of appropriate barometer            measures
    measures for assessing the
    effectiveness of OASDI programs

I.2 Preparation of analyses and reports on      I.2 Prepare reports on:
    the effect of OASDI programs on                 1. Effect of OASDI programs on women;
    different populations in order to               2. Effect of OASDI programs on minorities;
    identify areas for policy change and            3. Effects of OASDI programs on low-wage
   develop options as appropriate                       workers;
                                                    4. Study on characteristics of people receiving DI
                                                        benefits;
                                                    5. Analysis of the effect of changes in Social
                                                         Security retirement benefits on the DI program

I.3 Preparation of analyses and reports on      I.3 Prepare analyses on the following topics:
    demographic, economic, and                      1. Labor force transitions in the elderly population;
    international trends and their effects of       2. Implications for retirement income security of
   OASDI programs in order to anticipate               shifts from defined benefit to defined contribution
   the need for policy change and develop              plans through study of lump-sum payments from
   options as appropriate                              employer pensions;
                                                    3. Differences across subgroups in saving;
                                                    4. International retirement policy reforms

I.4 Preparation of research and policy          I.4 Prepare analyses on the distributional and fiscal
    evaluation necessary to assist the              effects of solvency proposals developed by the
    Administration and Congress in                  Administration, Congress, and other policy makers
   developing proposals to strengthen and           (we will analyze new proposals and/or modify
   enhance the solvency of OASDI                    analyses of previous proposals based on new data)
   programs




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)              A-1

Objectives: To promote policy changes, based on research and evaluation
analysis, that shape the supplemental security income (SSI) program in a
manner that protects vulnerable populations, anticipates the evolving needs
of SSI populations, and integrates SSI benefits with other social benefit
programs to provide a safety net for aged, blind, and disabled individuals.

          Performance Indicator                                     FY 2001 Goal
I.5 Identification, development, and            I.5 Prepare summary and analysis on the barometer
    utilization of appropriate barometer            measures
    measures for assessing the
    effectiveness of the SSI
    program

I.6 Preparation of a report and completion      I.6 Complete interviewing for the first wave on the SSI
    of data collection on the SSI Childhood         Childhood Disability Survey
    Disability Survey in order to assess the
    impact of welfare reform, identify
    areas of potential policy change, and
    develop options as appropriate

I.7 Preparation of analyses on sources of       I.7 Prepare analysis and report on child support
    support for the SSI population in order         enforcement
    to identify areas for better coordination
    with other social benefits and develop
    options as appropriate

I.8 Preparation of analyses of complex          I.8 Prepare analyses on SSI simplification
    SSA policies                                   opportunities




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)            A-2
Objective: To promote policy changes, based on research and evaluation
analysis, that shape the disability program in a manner that increases self-
sufficiency and takes account of changing needs based on the medical,
technological, demographic, job market, and societal trends.

          Performance Indicator                                     FY 2001 Goal
I.9 Increase in number of DI adult worker       I.9 10%
    beneficiaries who begin a trial work
    period

I.10 Increase in number of SSI disabled         I.10 10%
     beneficiaries, aged 18-64, participating
     in 1619(a)

I.11 Preparation of a research design to        I.11 	Prepare a preliminary report on the development
     develop techniques for validating               of the validation methodology
     medical listings

I.12 Preparation of reports on results of the   I.12 Initiate main study data collection
     National Study of Health and Activity in
     order to identify potentially eligible
     disabled populations, interventions that
     enable continued work effort among
     the disabled, and guide changes to the
     disability decision process

I.13 Prepare analysis of alternative return-    I.13 Design and initiate implementation of
     to-work strategies                              demonstration projects
Objective: Provide information for decisionmakers and others on the Social
Security and SSI programs through objective and responsive research,
evaluation, and policy development.

          Performance Indicator                                      FY 2001 Goal
I.14 Percent of customers assigning a high       I.14 Establish a baseline
     rating to the quality of the Social
     Security Administration’s (SSA)
     research and analysis
     products in terms of accuracy,
     reliability, comprehensiveness,
     and responsiveness

I.15 Percent of major statistical                I.15 Establish a baseline for percent of
     products that are timely                         major statistical products that are
                                                      produced on schedule




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)               A-3
Strategic Goal II: To deliver customer-responsive world-class service
Output Measures for Major Budgeted Workloads.
                                                                                        UNITS
II.1   Retirement and Survivors Insurance claims processed                   II.1    3,083,000
II.2   SSI aged claims processed                                             II.2      136,400
II.3   Initial disability claims processed                                   II.3    2,057,000
II.4   Hearings processed                                                    II.4      582,000
II.5   Social Security number (SSN) requests processed                       II.5   16,300,000
II.6   800-number calls handled                                              II.6   57,000,000

Objective: By 2002, to have 9 out of 10 customers rate SSA’s service as
“good,” “very good” or “excellent,” with most rating it “excellent”.

                           Performance Indicator                                    FY 2001 Goal
II.7 Percent of SSA’s core business customers rating SSA’s overall service   II.7    89%
     As excellent, very good or good

II.8 Percent of SSA’s core business customers rating SSA’s overall service   II.8    40%
     As excellent

II.9 Percent of employers rating SSA’s overall service as excellent, very    II.9    94%
     good or Good

II.10 Percent of employers rating SSA’s overall service as excellent         II.10 16%

II.11 Percent of callers who successfully access the 800-number within       II.11 92%
      5 minutes of their first call

II.12 Percent of callers who get through to the 800-number on their          II.12 86%
      first attempt

II.13 Percent of public with an appointment waiting 10 minutes or less       II.13 85%

II.14 Percent of public without an appointment waiting 30 minutes or less    II.14 70%

II.15 Percent of 800 number calls handled accurately                         II.15a 90% service
                                                                             II.15b 95% payment




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)         A-4
Objective: By 2002, to increase the range of program information services
available to customers over the phone and electronically

      Performance Indicator                                       FY 2001 Goal
II.16 New or expanded service           II.16 Take retirement or survivors claims immediately over the
      available over the phone                Telephone, or in person, as long as the applicant has all
                                              the Information needed – fully implemented


II.17 New or expanded service           II.17 Pilot/implement additional forms and transactional
      available electronically                services, Including:
                                        •     Retirement and Survivors claim forms; and
                                        •     Additional on-line transactional services for
                                              beneficiaries; and
                                        •     Establish an Electronic Death Certification pilot with the
                                              Bureau of Vital Statistics; verification of name/SSN
                                              match before sending data to SSA

II.18 Number of customers               II.18 23 million (as measured by SSA servers)
      accessing Social Security
      Online

II.19 Number of online Social           II.19 50 percent initiated on Internet
      Security Statement requests
      as compared to the number of
      800 Number ARU Social
      Security Statement requests

Objective: To raise the number of customers who receive service and
payments on time.

                           Performance Indicator                                      FY 2001 Goal
II.20 Initial disability claims average processing time (days)                    II.20 117 days

II.21 Hearings average processing time (days)                                     II.21 208 days

II.22 Percent increase in Production per Workyear in hearings process             II.22   14%

II.23 Percent of OASI claims processed by the time the first regular              II.23    83%
      payment is due or within 14 days from effective filing date, if later

II.24 Percent of SSI aged claims processed by the time the first regular          II.24   TBD
      payment is due or within 14 days of the effective filing date, if later             Once baseline
                                                                                          Established

II.25 Percent of original and replacement SSN cards issued within 5 days          II.25    97%
      of receiving all necessary documentation




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)              A-5
Strategic Goal III: To make SSA program management the best-in-business,
with zero tolerance for fraud and abuse.
Output Measures for Major Budgeted Workloads
                                                                                    UNITS
III.1   Periodic review of continuing disability reviews (CDR) processed     III.1   1,729,000
III.2   SSI non-disability redeterminations                                  III.2   2,050,000
III.3   Annual earnings postings                                             III.3 259,400,000
III.4   Representative payee actions                                         III.4   7,461,900
Objective: To make benefit payments in the right amount.

                            Performance Indicator                                FY 2001 Goal
III.5 Dollar accuracy of OASI payment outlays: % w/o overpayments            III.5a    99.8%
                                               % w/o underpayments           III.5b    99.8%

III.6 Disability determination services (DDS) net decisional accuracy rate   III.6     97%

III.7 DDS allowance performance accuracy rate                                III.7    96.5%

III.8 DDS denial performance accuracy rate                                   III.8    93.5%

III.9 Office of Hearings and Appeals decisional accuracy rate                III.9    87%

III.10 Dollar accuracy of SSI payment outlays:     % w/o overpayments        III.10a 95.5%
                                                   % w/o underpayments       III.10b 98.8%

III.11 Percent of SSN issued accurately                                      III.11    99.8%

Objective: To become current with DI and SSI CDR requirements by 2002.

                            Performance Indicator                                FY 2001 Goal
III.12 Percent of multi-year (FY 1996-2002) CDR plan completed               III.12    86%

Objective: To maintain through 2002, current levels of accuracy and
timeliness in posting earnings data to individual’s earnings records.

                            Performance Indicator                                FY 2001 Goal
III.13 Percent of wage items posted to individuals’ records by               III.13    98%
       September 30

III.14 Percent of earnings posted correctly                                  III.14    99%




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)          A-6
Objective: To aggressively deter, identify and resolve fraud.

                            Performance Indicator                              FY 2001 Goal
III.15 Number of investigations conducted (i.e., closed)                 III.15    8,000

III.16 OASDI dollar amounts reported from investigative activities       III.16 $55 million

III.17 SSI dollar amounts reported from investigative activities         III.17 $90 million

III.18 Number of criminal convictions                                    III.18     2,500


Objective: To increase debt collections by 7 percent annually through 2002.

                            Performance Indicator                              FY 2001 Goal
III.19 OASDI debt collected                                              III.19 $1,364.1 million

III.20 SSI debt collected                                                III.20 $ 732.7 million




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)      A-7
Strategic Goal IV: To be an employer that values and invests in each
employee.
Objective: To provide the necessary tools and training to achieve a highly
skilled and high-performing workforce.

                     Performance Indicator                                   FY 2001 Goal
IV.1 Percent of offices with access to Interactive Video             IV.1 100%
     Training/Interactive Distance Learning

IV.2 Formal management development programs implemented              IV.2 All leadership programs
                                                                     continued. Decisions on future
                                                                     Senior Executive Staff/Career
                                                                     Development Plans & ALP
                                                                     have yet to be made.
IV.3 Percent of managerial staff participating in
     management/leadership development experiences                   IV.3 33 1/3%

Objective: To provide a physical environment that promotes the health and
well-being of employees.

                     Performance Indicator                                   FY 2001 Goal
IV.4 Percent of employees reporting they are satisfied with the      IV.4   75%
     level of security in their facility

IV.5 Percent of environmental air quality surveys completed and      IV.5a 20% facilities surveyed,
    percent of the corrective actions taken when called for          IV.5b 75% corrective actions
                                                                           Taken

IV.6 Number of facilities having water quality testing and percent   IV.6a 42 facilities tested,
     of corrective actions taken when called for                     IV.6b 100% corrective actions
                                                                            taken

IV.7 Number of relocated offices having security surveys and         IV.7a 150 offices surveyed,
     percent of SSA accepted security recommendations                IV.7b 87% accepted
     implemented                                                     recommendations implemented




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)         A-8
Objective: To promote an Agency culture that successfully incorporates our
values.

                    Performance Indicator                                 FY 2001 Goal
IV.8 Create Agency change strategy                                IV.8 Implement strategy


Objective: To create a workforce to serve SSA’s diverse customers in the
twenty-first century.

                    Performance Indicator                                FY 2001 Goal
IV.9 Complete Agency plan for transitioning to the workforce of   IV.9a Implement and update
     the Future                                                         transition plan

                                                                  IV.9b Develop and implement
                                                                        action items from
                                                                        employee survey

Strategic Goal V: To strengthen public understanding of the Social Security
Programs.
Objective: By 2005, 9 out of 10 Americans will be knowledgeable about the
Social Security programs in five important areas.

                    Performance Indicator                                FY 2001 Goal
V.1 Percent of individuals issued Social Security Statements as   V.1   100%
     required by law

V.2 Percent of public who are knowledgeable about Social          V.2    70%
    Security programs




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)     A-9

                                                                               Appendix B


Agency Comments





Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)
                                         SOCIAL         SECURI1Y

MEMORANDUM



           May 2,2001                                                            Refer To: S lJ-3

To:        JamesG. Ruse, Jr.
           Inspector General

           Larry G. Massanari
           Acting -


Subject:   The"Office of the 'ector. General Draft Report, "Review of Social Security Administration's
           Fiscal Year 2001 ~~ual Performance Plan" (A-02-00-10038)--INFORMATION

               0°
           Our comments on the subject report are attached. If your staffhave any questions, they may
           contact Robert Berzanski on extension 52675.

           Attachment:
           SSA Comments
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“REVIEW OF THE SOCIAL SECURITY ADMINISTRATION’S FISCAL YEAR 2001
ANNUAL PERFORMANCE PLAN” (A-02-00-10038)


Thank you for the opportunity to review and provide comments on this draft report. We
appreciate that the report notes that our Annual Performance Plan (APP) for fiscal year
(FY) 2001 represents the strong commitment of the Social Security Administration
(SSA) to meet the objectives of the Government Performance and Results Act (GPRA)
of 1993. Following are our comments on the recommendations.


Recommendation 1

Set goals for those management challenges for which measurable corrective action is
possible.

Comment

We agree with the recommendation to establish goals for management challenges,
when quantifiable or measurable targets are appropriate. We believe we have
measurable targets for those management challenges which SSA has determined
should be tracked in the APP, e.g., solvency, disability redesign, fraud, and customer
service. SSA management will continue to identify areas to be included in the APP as
appropriate.

Recommendation 2

Establish more outcome-based and service-related measures.

Comment

We agree in principle with the recommendation to establish more outcome and service
related measures, and believe we continue to improve in this area. The FY 2002 plan
indicates that efficiency indicators will be developed for initial claims and post-
entitlement workloads. Establishing outcome-based and service-related measures is an
evolving process, and SSA management will evaluate the feasibility of establishing
measures for additional workloads in future plans.




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)         B-2
Recommendation 3

Provide a basis upon which to compare goals and subsequent performance with
customer expectations.

Comment

We agree that there may be value in such comparisons as they affect specific
measures. SSA sets goals based on customer interests in combination with historical
experience, benchmarks and investments. We then utilize a balanced scorecard
approach to measure progress toward attaining those goals.

Recommendation 4

Specifically identify resources needed to accomplish planned performance.

Comment

We do not agree with this recommendation. Although we recognize that a strong link
between budget and planned performance is desirable, and we are always looking for
ways to enhance this linkage appropriately, SSA is currently meeting the intent of GPRA
in both its budget justifications and its performance plans. The draft report suggests
that "staff years associated with many planned output goals could be disclosed."
However, the draft report does not acknowledge that SSA's FY 2000 and FY 2001
APPs already disclose, by workload, the total administrative funding budgeted to
accomplish key output measures. By disclosing cost allocations of total administrative
funding by workload, SSA believes that our performance plans have already gone
beyond this draft report suggestion, because total administrative funding better
represents full administrative costs than would the disclosure of just staff years or
estimated costs of individual contracts.

SSA is also pleased to see that the draft report acknowledges our FY 2001 APP
"includes significantly more data on information technology (IT) and capital investment."
This portion of SSA's FY 2001 performance plan was strengthened to better relate plans
to resources. For example, the IT/Capital Investments section includes a new table
displaying the IT Systems budget by baseline operations, strategic priorities, and
crosscutting IT initiatives. Although not acknowledged in the draft report, SSA also
strengthened the linkage between plans and resource requirements in the FY 2001 APP
by adding a new section summarizing estimated FY 2001 workyear savings from
initiatives proposed in the Agency's budget.




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)          B-3
Recommendation 5

Coordinate with the Health Care Financing Administration (HCFA) to determine which
agency should establish performance goals for service to Medicare recipients.

Comment

SSA will explore the feasibility of establishing such a goal. On page 7 of the draft
report, OIG commented that the goal for the project to validate the medical listings is
vague and that SSA did not clearly identify how accomplishments in FY 2000 relate to
the goal for FY 2001. OIG also commented that the indicator would have been more
valuable if there had been an indication and basis on which listings would be validated
first.

In the 2000 Accountability Report we noted that the Disability Research Institute (DRI)
was working on a project to develop a method by which the Medical Listings could be
validated. Completing a preliminary report on the development of a validation
methodology is a goal in the 2001 Performance Plan. Next steps include:

1. Developing criteria to be used to validate the listings. The validation criteria will be
     reviewed by program, medical, and technical experts before being finalized.
2. 	 Creating methods to assess whether the impairments described in the listings
     constitute a reasonable presumption of inability to perform substantial gainful
     activity.
3. 	 Developing a method for making those criteria operational. Deciding which listing to
     examine first. We intend to base our choice of a listing on considerations such as
     the appropriateness of the validation methodology for a particular type of
     impairment, the potential costs of the analysis, the likelihood of success, and
     programmatic concerns, including numbers of applications and decisional accuracy.




Review of the SSA’s Fiscal Year 2001 Annual Performance Plan (A-02-00-10038)             B-4
                                                                          Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

Frederick C. Nordhoff, Director, Financial Management and Performance Monitoring
   Audit Division, (410) 966-6676

Timothy Nee, Deputy Director, (212) 264-5295

Acknowledgments

In addition to those named above:

   John P. Harrison, Senior Auditor

   Annette DeRito, Program Analyst

For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 965-5998. Refer to Common Identification
Number A-02-00-10038




Review of the SSA’s Fiscal Year Annual Performance Plan (A-02-00-10038)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
